Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      RETAIL FOOD SAFETY




                    JANET REHNQUIST
                      Inspector General

                      SEPTEMBER 2001
                       OEI-05-00-00540
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them.
This statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches
to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Chicago office prepared this report under the direction of William C. Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

Region                                                          Headquarters

Joe Penkrot, Project Leader                                     Joe Rutherford, Program Specialist

Erin Guay, Program Analyst

Tricia Fields, Program Analyst





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
             Reports are also available on the World Wide Web at our home page address:

                                      http://www.hhs.gov/oig/oei/
                    EXECUTIVE                       SUMMARY


PURPOSE

       This study assesses the Food and Drug Administration’s (FDA) role in States’ adoption
       and implementation of the model Food Code and the voluntary Recommended National
       Retail Food Regulatory Program Standards.


BACKGROUND

       Foodborne illness is a major cause of personal distress, preventable death, and avoidable
       economic burden. Every year, millions of Americans become sick and many die from
       foodborne illness, and as a result, the public has become increasingly aware and
       concerned about the safety of the food they eat. The annual cost of foodborne illness in
       terms of pain and suffering, reduced productivity, and medical costs is estimated to be in
       the billions of dollars.

       The breadth of the retail food industry makes it an impossible task for FDA alone to
       monitor the safety of food at the retail level. As a result, State and local governments
       play a critical role in overseeing the safety of the nation’s food supply. The FDA relies
       on more than 3,000 State and local jurisdictions to monitor retail establishments and their
       employees. State and local regulators conduct the vast majority of inspections for retail
       establishments in accordance with their own laws and authorities. In addition to many
       other types of food establishments that directly serve consumers, restaurants,
       supermarkets, and institutional food services fall under FDA’s retail food protection
       program, a cooperative Federal-State food safety effort.

       The FDA has several retail food safety initiatives underway aimed at reducing the risk
       factors that cause foodborne illnesses and in achieving uniformity in retail food
       inspections. One effort involves issuing a model Food Code every 2 years to enhance the
       consistency among Federal, State, and local jurisdictions, and to improve the
       effectiveness of retail food safety programs. The Food Code provides the most current
       scientific principles in conducting retail food safety inspections. Thirty States and
       1 territory have voluntarily adopted a version of the Food Code, and another 15 States
       and 1 territory are in the process of adopting the Food Code. States and local
       jurisdictions may adopt particular aspects of the Food Code or use measures they deem at
       least equivalent to inspection techniques or procedures outlined in the Food Code.
       A second effort began in 1998 when FDA drafted voluntary Recommended National
       Retail Food Regulatory Program Standards (or the Standards) to serve as a national
       foundation for comprehensive retail food inspection regulatory programs and to guide the
       development and management of retail food inspection programs. In 1999-2000, FDA



FDA & RETAIL FOOD                               i                                    OEI-05-00-00540
       pilot tested the Standards in 4 States and 3 local jurisdictions. Over 100 agencies
       volunteered to participate in the next phase-in cycle. The FDA believes that use of the
       Standards will be a primary focus of their dealings with retail food inspection agencies in
       the future.

       The FDA considers States’ adoption and implementation of the Food Code and the
       Standards as the essential elements in achieving uniformity across all jurisdictions
       responsible for retail food safety and reducing the incidence of foodborne illness. To
       determine FDA’s role in assisting State and local retail food inspection agencies reach
       these goals, we conducted an electronic survey of all State retail food inspection agencies
       and met with State and local retail food inspection agencies in 10 States. In addition, we
       interviewed FDA’s Regional Food Specialists as well as all members of the headquarters’
       Retail Food and Interstate Travel Team. We also conducted interviews with consumer
       advocates and members of the Executive Board for the Conference for Food Protection,
       where Food Code revisions are recommended every 2 years.


FINDINGS

OVERALL - Respondents rate FDA highly in their promotion and support of the
Food Code and the voluntary Recommended National Retail Food Regulatory
Program Standards

       Overwhelmingly, respondents agreed that FDA has demonstrated their support for the
       Food Code and the Standards. Almost all respondents said that FDA encourages
       adoption of the Food Code, and described a variety of ways FDA supports this activity.

FOOD CODE - States face multiple barriers in adopting and implementing the
Food Code

       Nearly three-fourths of the States report that the biennial revisions to the Food Code act
       as a drawback to adopting the most recent Food Code. Respondents also indicate other
       drawbacks, including the feasibility of some of the provisions, the cost and time involved
       in adopting or implementing an updated version of the Food Code, and the need to rely
       on FDA to interpret Food Code provisions and provide other support.

STANDARDS - The FDA staff and State and local agency opinions differ on the
most difficult standards to accept and implement, which may affect the way the
Standards are implemented

       While FDA regional and headquarters staff believe that retail inspection agencies will
       encounter more difficulty with the program standards dealing with a uniform inspection
       program and compliance and enforcement, State surveys point to problems with the
       standards relating to program assessment and program resources. State and local




FDA & RETAIL FOOD                               ii                                   OEI-05-00-00540
       agencies we visited cite standards for a trained regulatory staff and an inspection program
       based on the principles of hazard analysis at critical control points.


OPPORTUNITIES FOR FACILITATING IMPLEMENTATION

Develop a strategic plan outlining current and anticipated acceptance of the
Standards by State and local agencies and detailing how FDA will respond to the
needs of these agencies

       The retail food industry, State and local agencies, and Federal respondents, all embrace
       the Food Code and the Standards as blueprints for developing retail food inspection
       practices and organizations for the future. However, respondents at every level expressed
       concern about implementation issues, particularly in regards to a lack of resources
       necessary to carry out many aspects of the Standards. Because resources are limited at
       all levels, collaboration among FDA, State and local agencies, and the retail food
       industry is essential. What FDA needs now is to develop strategic plans to map out
       future actions, both internally as well as for the States, and we offer numerous
       suggestions that we hope will be helpful in developing such strategic plans. Our
       suggestions include that FDA:

       <	     re-evaluate the frequency of revising the Food Code and consider making the
              Food Code a requirement by publishing the model Food Code in the Federal
              Register.
       <	     issue a user guide concurrent with the issuance of a new Food Code making the
              Food Code more practical.
       <      widely publicize the availability of web-based training.
       <	     provide training to FDA staff in order for them to assist State and local agencies
              with program assessments.

       Numerous other suggestions are included in the body of the report.

Develop a model strategic plan for the States to use as they consider acceptance
and begin implementation of the Standards

       In addition to the strategic plan described above that outlines activities for FDA’s
       consideration as they begin to roll out the Standards on a national basis, it is also
       important that FDA provide States with a model strategic plan outlining what the States
       should consider in regard to accepting and implementing the Standards.

AGENCY COMMENTS

       The Food and Drug Administration agrees with the recommendations in this report and
       will develop strategic plans and continue to work with other groups, States and localities
       regarding innovative ways to facilitate food safety through adoption and implementation
       of the Food Code and the Standards.



FDA & RETAIL FOOD                              iii                                   OEI-05-00-00540
                           TABLE                         OF              CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


  FDA Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


  Barriers to Implementing Food Code . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


  Differences on Problems with Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


OPPORTUNITIES FOR FACILITATING IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . 15


AGENCY COMMENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDIX


   A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





FDA & RETAIL FOOD                                                   iv                                                    OEI-05-00-00540
                            INTRODUCTION


PURPOSE

       This study assesses the Food and Drug Administration’s (FDA) role in States’ adoption
       and implementation of the model Food Code and the voluntary Recommended National
       Retail Food Regulatory Program Standards.


BACKGROUND

       Foodborne illness is a major cause of personal distress, preventable death, and avoidable
       economic burden. Every year, millions of Americans become sick and many die from
       foodborne illness, and as a result, the public has become increasingly aware and
       concerned about the safety of the food they eat. The annual cost of foodborne illness in
       terms of pain and suffering, reduced productivity, and medical costs is estimated to be in
       the billions of dollars.

       Although numerous Federal agencies are involved both directly and indirectly in the food
       safety system, FDA has overall Federal responsibility for all domestic and imported
       foods that are marketed in interstate commerce with the exception of meat and poultry
       products which fall under the jurisdiction of the Food Safety and Inspection Service
       within the United States Department of Agriculture (USDA). Both FDA and USDA,
       Food Safety and Inspection Service share responsibility for eggs. The Federal Food Drug
       and Cosmetic Act of 19381 established FDA’s primary role in food safety as one of
       inspecting the conditions under which food is manufactured, processed, packaged, and
       stored. In addition to these inspection responsibilities, FDA assists State and local
       governments in the development and enforcement of food safety regulations as mandated
       under the Public Health Service Act.2

       The breadth of the retail food industry makes it an impossible task for FDA alone to
       monitor the safety of food at the retail level. As a result, State and local governments
       play a critical role in overseeing the safety of the nation’s food supply. The FDA relies
       on more than 3,000 State and local jurisdictions to monitor retail establishments and their
       employees. In addition to many other types of food establishments that directly serve
       consumers, restaurants, supermarkets, and institutional food services fall under FDA’s
       retail food protection program, a cooperative Federal-State food safety effort. For


       1
           21 USC 301

       2
           42 USC 243



FDA & RETAIL FOOD                               1                                    OEI-05-00-00540
       simplicity, this report uses the term “retail food establishments” to cover the entire range
       of facilities that fall under this cooperative program. State and local regulators conduct
       the vast majority of inspections of retail food establishments in accordance with their
       own laws and authorities.

The FDA’s Role in Ensuring Retail Food Safety

       Two FDA components work toward achieving national uniformity in retail food safety
       programs. The Center for Food Safety and Applied Nutrition’s mission is to promote and
       protect the public health by ensuring that food is safe, nutritious, and wholesome. The
       Office of Regulatory Affairs is responsible for all FDA field activities. Both the Center
       for Food Safety and Applied Nutrition and the Office of Regulatory Affairs work with
       State and local health departments, as well as other Federal agencies, to help resolve food
       safety concerns and conduct training to improve consistency in science-based retail food
       safety inspections.

       The FDA has several retail food safety initiatives underway aimed at reducing the risk
       factors that cause foodborne illnesses and in achieving uniform and science-based retail
       food inspections. One effort involves issuing a model Food Code every 2 years to
       enhance the consistency among Federal, State, and local jurisdictions, and to improve the
       effectiveness of retail food safety programs. The Food Code sets forth model regulatory
       requirements based on the most current scientific principles in conducting retail food
       safety inspections. Thirty States and 1 territory have voluntarily adopted a version of the
       Food Code, and another 15 States and 1 territory are in the process of adopting the Food
       Code. States and local jurisdictions may adopt particular aspects of the Food Code or use
       measures they deem at least equivalent to inspection techniques or procedures outlined in
       the Food Code.

       A second effort began in 1998 when FDA drafted voluntary Recommended National
       Retail Food Regulatory Program Standards (or the Standards) to serve as a national
       foundation for comprehensive retail food inspection regulatory programs and to guide the
       development and management of retail food inspection programs. In 1999-2000, FDA
       pilot tested the Standards in 4 States and 3 local jurisdictions. Over 100 agencies
       volunteered to participate in the next phase-in cycle. The FDA believes that the
       Standards will be a primary focus of their dealings with retail food inspection agencies in
       the future.

       Other efforts involve the Center for Food Safety and Applied Nutrition and the Office of
       Regulatory Affairs’ formation of a Retail Food Program Steering Committee to provide
       national leadership, enhance communication, and promote uniformity. The Steering
       Committee represents all FDA components involved in retail food safety. In addition,
       FDA established a National Retail Food Team to help improve the retail food safety
       system. The National Retail Food Team is comprised of all FDA regional food
       specialists, and headquarters retail food safety staff from the Office of Regulatory Affairs




FDA & RETAIL FOOD                                2                                     OEI-05-00-00540
        and the Center for Food Safety and Applied Nutrition, which includes the Retail Food
        and Interstate Travel Team staff.

        The FDA and the Department of Agriculture collaborate with the Centers for Disease
        Control and Prevention on FoodNet3 and PulseNet.4 FoodNet provides a way to respond
        to new and emerging foodborne diseases of national importance, monitor the prevalence
        of foodborne diseases, and identify the sources of specific foodborne diseases. State and
        local public health laboratories participating in PulseNet perform DNA “fingerprinting”
        on bacteria that may be foodborne and submit the patterns to the central electronic
        database at the Centers for Disease Control for rapid comparison.

Model Food Code

        The Food Code represents the most comprehensive source of safe food practices and
        guidelines at the retail level and has been considered the cornerstone to achieving
        national uniformity. It serves as a reference document for regulatory agencies who have
        responsibility for overseeing food safety in retail outlets such as grocery stores and
        restaurants, as well as institutions like schools, hospitals, nursing homes, prisons, and day
        care centers. Although not federally required to do so, all levels of government may
        voluntarily adopt the Food Code.

        The Food Code has evolved since the 1934 proposed Restaurant Sanitation Regulations.
        Prior to 1993, the recommended regulatory codes addressed separate entities of the retail
        food industry. Beginning in 1993, these codes were combined into a single document
        called the Food Code. The Conference for Food Protection, comprised of Federal, State
        and local agencies, the food service, retail food, and food vending industries, consumers,
        and academia, makes recommendations related to the Food Code to reflect the most
        current scientific knowledge during its biennial meeting. The FDA decides which
        Conference for Food Protection recommended changes to make to the Food Code and
        accepts those recommendations in harmony with scientific evidence, public health
        principles, and Federal regulations, directives, and policy.

        State and local retail food inspection agencies, as well as tribal agencies and Federal
        Government agencies, may use the Food Code as a model to help develop or update their
        own food safety rules and regulations. Agencies can modify the Food Code to
        accommodate their existing laws, procedures, and policies. They can adopt the Food


        3
          The FoodNet project sites are California, Colorado, Connecticut, Georgia, New York, Maryland,
Minnesota, Oregon, and Tennessee.
        4
            PulseNet participants include public health laboratories in California, Colorado, Georgia, Florida,
Hawaii, Illinois, Indiana, Iowa, Kansas, Los Angeles County, Massachusetts, Minnesota, New Hampshire, New
Jersey, New York, New York City, Ohio, Oregon, Tennessee, Texas, Utah, Virginia, Washington and Wisconsin.
The laboratories at the United States Department of Agriculture, Food Safety and Inspection Service and the Food
and Drug Administration, Center for Food Safety and Applied Nutrition are also involved in the PulseNet network.




FDA & RETAIL FOOD                                       3                                         OEI-05-00-00540
         Code either in its entirety, or section by section, using one of the following three
         methods:

         <        enacting the Food Code into statute,
         <        promulgating the Food Code as a regulation,5 or
         <	       adopting the Food Code as an ordinance (if a local legislative body is delegated
                  rule-making authority or regulatory powers).

         State and local adoption of the Food Code is one of the primary approaches to achieving
         uniformity among jurisdictions, which the retail food industry strongly supports.
         However, some States, like Texas and Illinois, honor “home-rule” for municipal
         governments, making retail food safety inspection standardization more difficult to attain,
         and some States have a combination of home-rule and State-preempted jurisdictions. In
         such States, home-rule local municipalities make decisions about food safety regulations,
         developing and enforcing their own food safety laws, independent of State government.
         These local laws cannot be less stringent than State laws, but can be more strict.

         Besides FDA’s efforts, the 1997 National Food Safety Initiative6 emphasized adoption
         and implementation of the Food Code to achieve coordination and better integration
         between the activities of the Federal, State, tribal, and local food safety agencies. In June
         of 1998, the Secretary of Health and Human Services and the Secretary of Agriculture
         jointly wrote to all State governors asking them to encourage their State agencies with
         retail food safety responsibilities to adopt the Food Code.

Voluntary Recommended National Retail Food Regulatory Program Standards

         Although adoption of the Food Code has historically been the cornerstone in achieving
         uniformity among the various jurisdictions responsible for retail food safety, FDA
         believes that an agreed upon national standard or foundation for regulatory programs is
         an essential component of a comprehensive retail food safety system. In 1998, FDA
         formulated the Standards to assist regulatory retail food program managers in the design
         and management of a retail food program and provide a means of recognition for those
         programs that meet the Standards. Major stakeholders, including State and local
         regulatory officials as well as representatives from industry, trade associations,
         professional organizations, academia, and consumer organizations contributed to the
         development of the Standards.



         5
            Some States allow adoption of the Food Code by reference, a simple published statement advising that
certified copies of the proposed code are available for public review. Generally, this process obviates the need for
an agency’s authority to be revisited by a legislative body when the Food Code is revised.

         6
             This initiative produced interagency collaboration on food safety among the Department of Health and
Human Services, the Department of Agriculture, and the Environmental Protection Agency, culminating in the
report entitled “Food Safety From Farm to Table: A National Food Safety Initiative.”




FDA & RETAIL FOOD                                         4                                            OEI-05-00-00540
       The Standards represent the basic components of a retail inspection program: regulatory
       foundation, a trained regulatory staff, an inspection program based on hazard analysis at
       critical control points principles (known as HACCP), a uniform inspection program,
       foodborne illness investigation and response, compliance and enforcement measures,
       industry and community relations (previously called industry recognition), program
       support and resources, and program assessment. The FDA’s Retail Food and Interstate
       Travel Team, along with other Center for Food Safety and Applied Nutrition staff and the
       Regional Food Specialists, provide Food Code interpretations for a uniform and
       reasonable application of these Standards. The Standards were developed to meet the
       following objectives:

       <	        Promote uniformity within, and provide a foundation for, the implementation of
                 regulatory retail food programs, focused on the reduction of risk factors known to
                 cause foodborne illness, and the Food Code’s key interventions.
       <	        Promote, through management of a regulatory retail food program, industry’s
                 active managerial control of foodborne illness risk factors within retail food
                 establishments.
       <         Serve as a benchmark in the design and management of retail food programs.
       <         Provide a means of recognition for regulatory retail food programs that meet these
                 Standards.7

       Early tests of the Standards have encouraged extensive expansion by FDA. Seven State
       and local regulatory programs participated in an FDA-sponsored pilot test designed to
       have the programs evaluate their ability to meet the Standards, the usefulness of the
       Standards in the self-assessment process, and the usefulness of the forms included in the
       Standards and provided as tools to the pilot agencies. Based in part on the pilot agencies’
       positive responses to the Standards, FDA’s plans include approximately 130 additional
       jurisdictions phasing in the use of the Standards in calendar year 2001. In the future,
       FDA envisions that the Standards will be part of the Food Code, incorporated as a
       separate annex.

Other Studies

       The Office of Inspector General conducted two previous inspections on food safety. The
       first, “FDA Food Safety Inspection,” (OEI-05-90-01070) examined FDA’s domestic food
       safety inspections and raised concerns about FDA’s oversight of low-risk food firms.
       The second, “FDA Oversight of State Food Firm Inspections: A Call for Greater
       Accountability,” (OEI-01-98-00400) assessed FDA’s oversight of food firm inspections
       conducted by States through contracts and partnership agreements. This inspection found
       that FDA’s oversight of these State food firm inspections is limited, particularly for
       partnership agreements, and that FDA faces a number of barriers that hinder its ability to
       oversee States’ performances.


       7
           Conference for Food Protection Accreditation Study Committee, 2000 Conference Report.




FDA & RETAIL FOOD                                      5                                           OEI-05-00-00540
       The General Accounting Office has issued reports dealing with a variety of issues
       regarding food safety. The General Accounting Office examined food safety in schools
       and FDA expenditures for food safety inspections. Currently, the General Accounting
       Office is in the process of conducting a survey of all State agencies responsible for food
       safety activities, focusing on States’ resources expended for activities related to food
       safety.


SCOPE AND METHODOLOGY

       We interviewed State and local agency management and inspectors with retail food

       safety responsibilities, FDA Regional Food Specialists, FDA headquarters staff in the

       Regional Food and Interstate Travel Team, members of the Conference for Food

       Protection Executive Board, and consumer advocates to gain information about the

       systems and processes associated with the adoption and implementation of the Food

       Code and the Standards. We did not attempt to measure any State’s effectiveness in

       using the Food Code or the Standards. We did not examine the Food Code or the

       Standards for adequacy as they relate to retail food safety.


       Throughout the inspection process, we systematically gathered both quantitative and

       qualitative data from the different stakeholder groups to identify issues and learn their

       perceptions of the systems and processes associated with the tools FDA uses to assist

       State retail food inspection agencies. We conducted extensive pre-inspection work to

       gain background knowledge and learn about pertinent issues in retail food safety.


       During pre-inspection, we met with officials at FDA headquarters. We also attended

       FDA regional-sponsored retail food safety seminars as well as a meeting of the National

       Retail Food Team. We met with Office of Inspector General legal staff to discuss FDA

       relations with the retail food industry. We conducted on-site visits of three local and one

       State food safety inspection agencies. We met with four food safety experts at Kansas

       State University, and two team members attended a food safety course sponsored by the

       National Restaurant Association. We also interviewed representatives from seven

       industry and association groups, two consumer advocacy organizations involved with

       retail food safety issues, and the Joint Commission on Accreditation of Health

       Organizations, which inspects some institutional food services as part of its accreditation

       process. 


       We used four methods for collecting data in this evaluation. First, we conducted an

       electronic survey of all 66 State agencies with retail food safety responsibilities. The

       survey contained both open and closed ended questions about adopting the 

       1999 Food Code changes, overcoming barriers to Food Code adoption and/or

       implementation, and FDA’s role in the process of adopting and implementing the Food

       Code. We asked similar questions regarding accepting and implementing the Standards. 

       We also asked about improvements that need to be made to these processes with specific





FDA & RETAIL FOOD                                6                                     OEI-05-00-00540
       emphasis on FDA’s role in assisting State and local agencies to adopt and implement the
       Food Code and the Standards. Sixty-one State agencies completed these surveys, for a
       92 percent response rate.

       Second, we conducted on-site interviews with State and local retail food inspection
       agencies and consumer advocates involved with retail food safety issues. With all of our
       on-site and telephone interviews, we used a structured discussion guide to elicit
       information about FDA’s role in the Food Code adoption process, and their views of the
       process of implementing the Food Code and the Standards. We also gathered
       information about improvements that they believe need to be made to the process and
       system in which they operate. We visited State and local agencies in 10 States and spoke
       with three consumer advocates.

       State retail food inspection agency officials included program directors, program
       managers, and inspectors from a purposive sample in Arizona, California, Georgia,
       Michigan, Minnesota, Rhode Island, South Carolina, Texas, Vermont, and Wyoming.
       We selected these States following discussions with FDA staff and other experts and
       based on criteria such as geographic variability, size, differing levels of State and local
       involvement in retail food inspections, and status of Food Code adoption.

       We conducted the site visits with these States during February and March 2001 to collect
       more in-depth information about the Food Code, the Standards, and the role of FDA.
       When applicable, we also met with local retail food safety agencies and consumer
       advocates to get their perceptions of the Food Code, the Standards, and FDA’s role in the
       process of adopting and implementing the Food Code. Overall, we met with 13 State
       retail food inspection agencies, 11 State inspectors, 16 local retail food inspection
       agencies, and 11 local inspectors.

       Third, we interviewed all 21 FDA Regional Food Specialists as well as all 6 members of
       the Retail Food and Interstate Travel Team. We conducted the interviews either in
       person or by telephone.

       Finally, we conducted structured personal or telephone interviews with 18 of the
       22 members of the Executive Board for the Conference for Food Protection for years
       2000 - 2002. The Executive Board members represent the perspectives of Federal
       agencies, State and local regulatory bodies, industry, academia, and consumers. We
       spoke to three other Executive Board members during our pre-inspection or on-site
       activities. One member did not respond to our requests to speak on these issues.

       We conducted our review in accordance with the Quality Standards for Inspections
       issued by the President’s Council on Integrity and Efficiency.




FDA & RETAIL FOOD                                7                                     OEI-05-00-00540
                                          FINDINGS

OVERALL - Respondents rate FDA highly in their promotion
and support of the Food Code and the voluntary
Recommended National Retail Food Regulatory Program
Standards
Supporting the Food Code

        Overwhelmingly, respondents agreed that FDA has demonstrated its support for the Food
        Code. Eighty-five of 86 respondents said that FDA encourages adoption of the Food
        Code and described a variety of ways FDA supports this activity. Respondents cited
        FDA’s training and their efforts to “standardize” inspectors 8 as well as the willingness
        and availability of FDA’s Regional Food Specialists and headquarters staff to assist them
        throughout the phases of Food Code adoption and implementation. This assistance
        included FDA staff serving on State and local task forces, testifying at hearings and
        speaking at grass roots meetings, and interpreting Food Code provisions. Overall,
        60 percent of the respondents characterized FDA’s Food Code support as effective.

        In our survey of State             Chart 1
        retail food agencies, we
        asked them to rate FDA’s
        training on the Food Code
        and their interpreting of
        the Food Code. Of the
        56 State agencies
        responding to these survey
        questions, 62 percent rated
        FDA’s training as either
        excellent or above
        average, and 57 percent
        similarly rated their Food
        Code interpretation
        assistance. Chart 1 shows
        these satisfaction levels.




        8
           Standardization is a term FDA uses to describe the approach of training State inspectors in FDA
methods. FDA standardizes State retail food inspectors by providing intensive, one-on-one training during the
inspection process. Standardized inspectors learn how to inspect in accordance with the latest Food Code. They are
then expected to standardize other State and local inspectors, who likewise should standardize other inspectors.


FDA & RETAIL FOOD                                       8                                          OEI-05-00-00540
Promoting the voluntary Recommended National Retail Food Regulatory Program
Standards

         States surveyed indicated widespread knowledge and acceptance of the Standards. 9
         Ninety percent of the State survey respondents said they were familiar with the
         Standards. When we shared copies of the Standards with respondents, 96 percent
         believed that FDA had identified the appropriate Standards necessary for an effective
         retail food safety inspection agency, and 93 percent believed that the Standards were
         important to an agency’s effectiveness in combating foodborne illnesses.

         Our on-site visits at State and local retail food inspection agencies showed some
         differences when compared to the State survey results. During these visits, we found that
         while knowledge of the Standards at the State management level was high, knowledge of
         the Standards dropped for State inspectors. Knowledge of the Standards at the local level
         was lower than knowledge
         at the State level. Six of     Chart 2
                               10
         the 16 local agencies and
         15 of 22 inspectors
         (representing both State
         and local agencies) visited
         on-site were unfamiliar
         with the Standards.

         The relative newness of
         the Standards may explain
         why State survey
         respondents believe that
         FDA’s communication of
         the objectives and
         interpretations of the
         Standards has been
         average at best. Eighty-
         one percent of State
         agencies responding to the
         survey said that FDA promotes the Standards, but most respondents could not comment
         on the effectiveness of these efforts yet. Even though FDA explained the objectives at
         numerous forums, on its website, and during field sanitarian courses, Chart 2 shows that
         most States do not believe that FDA has communicated the objectives or provided
         Standards interpretations at an above average level. More than half of FDA Regional



         9
          At the time of our data collection, Standard 7 was called Industry Recognition. Therefore, the questions
on our survey and questions asked during our on-site visits refer to this standard prior to the recent change.
         10
            Three local agencies we visited in Texas participated in the pilot project. Those pilot agencies are very
familiar with the Standards.


FDA & RETAIL FOOD                                         9                                           OEI-05-00-00540
       Food Specialists believed it is too soon to judge FDA’s performance on interpreting the
       Standards.

Written and web-based support for the Food Code and voluntary Recommended
National Retail Food Regulatory Program Standards

       Most respondents believed that FDA provided excellent or above average written
       materials and Internet information for the Food Code and Standards. During our on-site
       visits and phone interviews, we specifically asked respondents to rate FDA’s written
       materials and websites as they relate to supporting the Food Code and Standards. These
       interviews included State and local retail food inspection agency heads, Executive Board
       members of the Conference for Food Protection, consumer advocates, FDA’s regional
       Food Specialists and FDA’s Retail Food and Interstate Travel Team.

       Chart 3 shows that State and     Chart 3
       local retail food inspection
       agencies and Conference for
       Food Protection Executive
       Board members
       overwhelmingly believe that
       FDA’s written materials
       provide support for the Food
       Code and the Standards.
       However, 6 of the 16 local
       agencies are unaware of any
       FDA written materials for
       these initiatives.

       In addition, sixteen FDA
       respondents rated their written
       support as excellent or above
       average, four respondents
       rated it as average, and two as
       poor. Two FDA respondents
       said they did not know
       enough to give a rating,
       two did not comment, and one did not give a rating but was favorable about the written
       support that FDA provides for both the Food Code and the Standards. Two consumer
       advocates called the written support above average, while one was not aware of any FDA
       written support for the Food Code or the Standards.

       Similarly, respondents rated FDA’s website highly for providing them support for the
       Food Code and the Standards. Again, six of the local agencies are unaware of any FDA
       website information relating to these topics.

       In addition to these respondents, thirteen FDA staff described their website as either
       excellent or above average, three called it average, and four described it as below average


FDA & RETAIL FOOD                              10                                    OEI-05-00-00540
       or poor. The responses of the remaining seven FDA members could not be classified into
       the aforementioned ranking categories. One consumer advocate rated it above average,
       and one was not aware of the website.


FOOD CODE - States face multiple barriers in adopting and
implementing the Food Code
Frequency of Food Code revisions a major barrier to State adoption

       Seventy-two percent of States surveyed reported that frequent revisions to the Food Code
       act as a drawback to adopting the most recent Food Code. Similarly, during our on-site
       visits, many respondents told us they believed the Food Code is updated too frequently.

       Sixteen of 34 States that did not update their codes to include the 1999 Food Code
       changes indicated that the length of time and the difficulty of the adoption process
       inhibits them from updating their code every 2 years. Some of these States had just
       finished adopting an earlier version of the Food Code and are working on implementation
       issues, so they did not consider adopting the 1999 Food Code. Many States report that
       they do not have the time and resources to update their retail food safety regulations
       every time the Food Code changes, especially when the new version may contain only
       minor changes from an earlier version of the code.

       Retail Food and Interstate Travel Team staff are evenly divided on the issue of Food
       Code frequency. Similarly, the Conference for Food Protection Executive Board
       members split between thinking that the Food Code revision cycle was satisfactory or too
       frequent. Local retail food inspection agencies frequently take guidance from their States
       on Food Code adoption and are not typically involved in the Food Code revision and
       adoption processes.

Additional barriers to adopting and implementing the Food Code

       Besides the frequency of Food Code revisions, respondents also indicate other drawbacks
       including the feasibility of some of the provisions, the cost and time involved in adopting
       or implementing an updated version of the Food Code, and the need to rely on FDA to
       interpret Food Code provisions and provide other support.

       Fifty-four percent of State survey respondents specified that a major drawback to
       adopting the Food Code concerns the feasibility of some Food Code provisions. They
       also highlighted the political climate in the State, the reluctance to change their current
       retail food safety activities, and concerns about losing State control to the Federal
       Government as being additional barriers to Food Code adoption and implementation. In
       some cases, industry opposition to certain Food Code provisions inhibits changing State
       retail food laws.




FDA & RETAIL FOOD                               11                                    OEI-05-00-00540
       All respondent groups identified the cost and time involved in adopting and
       implementing the Food Code as barriers. They explained that the adoption and
       implementation process was resource intensive, particularly in terms of the legislative
       change and associated training costs necessary to learn a new code and the corresponding
       inspection process.

       Dependency on FDA for support, and States already having more stringent laws than the
       Food Code, represent other drawbacks States face when deciding to adopt and later
       implement the Food Code. Twenty-six percent of State survey respondents reported the
       need to rely on FDA for interpreting Food Code provisions and providing other
       implementation support as an impediment to their adopting a version of the Food Code.
       Based on the State responses to the survey question, we are unsure whether States are
       concerned that FDA does not have adequate resources to respond to requests for support
       or that States do not want to rely on FDA and want to be more independent.

The FDA’s role in helping States overcome Food Code barriers

       Seventy percent of the State survey respondents and 85 percent of the on-site respondents
       report that they believe FDA can play a role in helping retail food inspection agencies
       overcome the barriers faced in adopting and implementing the Food Code. They suggest
       that FDA could help States adopt the Food Code by reducing the frequency of updates to
       the Food Code, by making the Food Code a regulation rather than a recommendation, and
       improving the format of the Food Code. All respondent groups mentioned the published
       format of the Food Code as not being user-friendly for either inspectors or retail food
       operators.

       In terms of how FDA can better help States implement the Food Code, the respondents
       suggest that FDA could devote more resources (both at the headquarters and regional
       level) to retail food safety and implementation issues, and expand the technical assistance
       and support FDA currently provides to the States. Specific suggestions relating to
       improved technical assistance include expanded training, additional educational and
       guidance materials, more timely Food Code interpretations, and marketing the
       importance of the Food Code.


STANDARDS - The FDA staff and State and local agency
opinions differ on the most difficult standards to accept and
implement, which may affect the way the Standards are
implemented
       Although the Standards are in draft form and have not been accepted and implemented by
       most retail food agencies, we asked respondents which standards they believe would be
       the most difficult to accept and implement. Many FDA staff said that the difficulty of
       implementing the Standards would vary across States, i.e. the most difficult standard for




FDA & RETAIL FOOD                              12                                    OEI-05-00-00540
        one State could be the easiest for another. The two standards most frequently mentioned
       for each respondent group are displayed in Chart 4.

       Chart 4
        Respondent Group              Standards Most Difficult to Accept and Implement
        State Agency Survey           • Program Assessment
                                      • Program Resources
        State and Local Agencies      • Trained Regulatory Staff
        (on-site visit respondents)   • Inspection Program Based on HACCP Principles
        State and Local Retail        • Uniform Inspection Program
        Food Inspectors               • Compliance and Enforcement
        (on-site visit respondents)
        FDA Staff (headquarters       • Uniform Inspection Program
        and regional)                 • Compliance and Enforcement
       Source: OEI Data, 2001

       The first two respondent groups shown above in Chart 4 (State agency survey
       respondents and the on-site respondents from the State and local agencies) differ in terms
       of which Standards they believed would be most difficult to accept and implement. This
       difference can be attributed to the fact that we conducted on-site visits with only 10 of the
       61 agencies who responded to the survey and the people that we met with on-site may not
       have been the person to complete the survey. In addition, the responses from our on-site
       visits include input from local agencies as well as from the State agencies.

       In our survey, we asked State agency respondents to indicate whether certain factors
       represent barriers to implementing any of the Standards. Respondents who identified
       each factor as a barrier were then asked which standard would be the most difficult to
       implement because of the barrier. Chart 5 on the following page shows their responses.
       We list two standards if they were mentioned the same number of times.




FDA & RETAIL FOOD                               13                                    OEI-05-00-00540
       Chart 5
        Percent of State agency respondents who             Standard most often cited by
        consider this factor a barrier                      respondents as most difficult to
                                                            implement because of barrier
        Lack of resources (69%)                             • Trained Regulatory Staff
        Feasibility (41%)                                   • Trained Regulatory Staff
                                                            • Inspection Program Based on
                                                             HACCP Principles
        Lack of industry support (34%)                      • Inspection Program Based on
                                                             HACCP Principles
        Lack of consistency with current State or local     • Uniform Inspection Program
        laws or regulations (31%)                           • Compliance and Enforcement
        Need to rely on FDA for interpreting (10%)          • Uniform Inspection Program
                                                            • Compliance and Enforcement
       Source: OEI Survey, 2001

       The FDA staff identified barriers similar to those cited by State retail food inspection
       agencies, including lack of resources (time, staffing, and money), training needs, and
       legislative challenges.




FDA & RETAIL FOOD                               14                                    OEI-05-00-00540
         OPPORTUNITIES FOR
    FACILITATING IMPLEMENTATION
      The retail food industry, State and local agencies, and Federal respondents, all embrace
      the Food Code and the Standards as blueprints for developing retail food inspection
      practices and organizations for the future. However, respondents at every level expressed
      concern about implementation issues, particularly in regards to a lack of resources
      necessary to carry out many aspects of the Standards.

      We recognize that these resources may be hard to come by, but over time, real progress
      can be made to implement these measures. Because resources are limited at all levels,
      collaboration among FDA, State and local agencies, and the retail food industry is
      essential. What FDA needs now is to develop strategic plans to map out future actions,
      both internally as well as for the States, and we offer numerous suggestions that we hope
      will be helpful in developing such strategic plans. The following suggestions for FDA’s
      consideration primarily focus on the Standards because of their relative newness as
      compared to the Food Code. However, we recognize that the adoption and
      implementation of the Food Code can be an integral part of each standard and should be
      considered when appropriate. We leave it to FDA to work with State and local agencies
      to determine how best to prioritize these actions.


Develop a strategic plan outlining current and anticipated
acceptance of the Standards by State and local agencies and
detailing how FDA will respond to the needs of these
agencies
      The strategic plan could focus on both short and long-term activities related to each of the
      nine standards. The widespread acceptance of the Standards by State and local retail food
      inspection agencies, as evidenced by their volunteering in unexpectedly high numbers to
      pilot the Standards, points toward the necessity of FDA devoting significant support and
      resources to these agencies to help them achieve some or all of the Standards. The FDA
      could make State and local retail food inspection agencies aware of FDA’s commitment to
      the Standards by publishing the strategic plan. The strategic plan could specify needs,
      targets, and FDA commitment for each standard. The strategic plan may also help FDA
      improve their marketing strategies to highlight the importance of participation from all
      States and local jurisdictions for achieving national uniformity and reducing the incidence
      of foodborne illness through the use of the Food Code and the Standards.

      We recognize that many standards intertwine. For example, an agency cannot have an
      effective compliance and enforcement program without a regulatory foundation or a
      trained regulatory staff. We also recognize that it is not realistic to expect that every
      agency can or will meet each of the Standards. We understand that implementing the



FDA & RETAIL FOOD                              15                                     OEI-05-00-00540
      Standards will require considerable effort and support from both FDA and retail food
      inspection agencies. Based on these understandings and on advice from our respondents,
      we suggest that FDA consider the following proposals in developing their strategic plan.

      Standard 1 - Regulatory Foundation

      <	     Improving Adoption of the Food Code - The FDA could re-evaluate the
             frequency of revising the Food Code. Publishing Food Code updates less
             frequently than every 2 years would remove the major barrier States currently face
             in adopting recent versions of the Food Code. The FDA could also consider
             making the Food Code a requirement rather than a regulation by publishing the
             model Food Code in the Federal Register. This would facilitate adoption for States
             that have the ability to adopt Federal regulations by reference and would help
             alleviate the problem of trying to keep State regulations consistent with the latest
             version of the Food Code. Codifying the Food Code would ultimately help
             achieve national uniformity.

      <	     User Guide to Food Code - The FDA could issue a user guide concurrent with the
             issuance of a new Food Code. The user guide would make the Food Code more
             practical for inspectors and retail food operators to use on a daily basis. All
             respondent groups mentioned the published format of the Food Code as not being
             user-friendly for either inspectors or retail food operators. Presently, the Food
             Code is written to be a regulation. Possibilities for the user guide include an
             abbreviated version of the Food Code which contains the critical items of the Code
             and consolidates all the provisions relating to one topic together in one section.
             The user guide should be smaller than the Food Code to facilitate its use in the
             field. The State of Texas publishes a Field Inspection Manual to promote
             uniformity in the application of their Food Establishment Rules. The manual
             outlines critical items and relates these items to the State inspection form. Also,
             the Association of Food and Drug Officials has published a Food Code Pocket
             Guide for Regulators that corresponds with the 1999 Food Code and includes
             critical items such as definitions, handwashing requirements, temperature
             requirements, Reduced Oxygen Packaging, and warewashing requirements. These
             could serve as examples for FDA. Other States may also have similar tools to
             assist the development of the user guide. Since retail inspection agencies
             frequently find non-English speaking operators and employees at retail food
             establishments, FDA could also make a Food Code user guide available in
             different languages for retail food operators.

      <	     Interpretations of Food Code and Standards - The FDA could devise a
             systematic way to share Food Code and Standards interpretations to help ensure
             consistent interpretation and enforcement. Presently, FDA responds to individual
             questions posed by a retail food inspection agency, usually through the Regional
             Food Specialist. Other Regional Food Specialists and agencies are not routinely
             advised of either the questions or the answers. So, when the same issues arise
             elsewhere, the process of trying to resolve similar questions must be repeated.



FDA & RETAIL FOOD                             16                                    OEI-05-00-00540
      Standard 2 - Trained Regulatory Staff

      <	     Need for Standardization Staff - The FDA could determine what additional staff
             both in the field and in the Retail Food and Interstate Travel Team it will need to
             perform standardizations of retail food safety inspectors. It is reasonable to
             assume that demands for standardization will increase as a result of the Standards,
             especially with local retail food safety inspection agencies participating. The FDA
             could poll the volunteering agencies in the second pilot test of the Standards to get
             an estimate of what standardization needs those agencies will now have. The
             demand for FDA’s standardization of retail food safety inspectors could increase
             exponentially with both State and local agencies using the Standards.

      <	     Web-based Training - Because inspection agencies have limited training and
             travel budgets, FDA could widely publicize the availability of web-based training.
             State and local retail food inspection agencies look forward to FDA’s planned
             web-based training. (In fact, many respondents requested more FDA training in
             any form.) Web-based training will allow most inspection agencies to benefit
             from this valued resource.

      <	     State and Local Training - The FDA could develop more flexibility in
             responding to State and local training needs. State and local agencies could make
             their training needs known electronically, as they determine them, rather than
             making an annual request through the Regional Food Specialist. This process
             would allow local agencies more input into the training calendar.

      <	     Recruitment Clearinghouse - The FDA could develop and maintain a national
             clearinghouse of retail food inspection vacancies. An ongoing problem retail food
             inspection agencies face is staff recruitment. College students or graduates in the
             field could post their resumes and have a central job bank to locate positions.
             State and local retail food inspection agencies could post their vacant positions.
             The clearinghouse could be developed to be dynamic, i.e., to allow agencies and
             applicants to link directly to each other, or to have the resumes and vacancies
             time-limited, so the bank of available jobs and applicants is current.

      <	     Turnover Exception - The FDA could develop an exception for the staffing
             standard for agencies with well-trained staff who suddenly confront a turnover
             problem. With high staff turnover, some retail food safety inspection agencies
             cannot meet, or continually meet, this standard if it is strictly interpreted.

      Standard 3 - Inspection Program Based on HACCP Principles

      <	     Software Inspection Tools - The FDA forms could be available to retail food
             inspection agencies in a software program compatible with hand-held computers,
             as FDA is doing with their uniform inspection software. The FDA developed a
             form for a Risk Control Plan for these retail HACCP reviews and has an inspection
             form for standardization purposes. Although some retail food inspection agencies



FDA & RETAIL FOOD                             17                                     OEI-05-00-00540
             believe they perform retail HACCP inspections, the standard requires
             documentation in a manner consistent with HACCP principles.

      Standard 4 - Uniform Inspection Program

      <	     Model Inspection Forms - Recognizing that States and local jurisdictions may
             have to make revisions to meet their laws, FDA could develop a model inspection
             form containing a common list of elements required by this standard. Jurisdictions
             could configure the FDA-developed software to meet local requirements.

      Standard 5 - Foodborne Illness Investigation & Response

      <	     Training Outreach - The FDA could reach out to medical schools to offer
             training on foodborne illnesses and the appropriate responses as they have done in
             partnership with the American Medical Association. Several respondents pointed
             out that the medical community is not always trained to identify and report
             foodborne illnesses. The FDA could also make this training available to
             physicians via the Internet.

      <	     Model Linkages - The FDA could develop a model flow for foodborne illness
             investigation and response, clarifying what different agencies could do in certain
             situations. Communication links between agencies are sometimes difficult, with
             the State retail food inspection agency sometimes not being aware or involved
             until late in the process.

      <	     Improved Surveillance System - The FDA could continue to work with the
             Centers for Disease Control and Prevention and others to improve the surveillance
             of foodborne diseases. The FDA could help to raise States’ awareness about
             FoodNet so they can access the information and use FoodNet’s active surveillance
             system as a model in developing or improving States’ foodborne illness
             investigation and response systems. The FDA could also promote State’s
             awareness about and involvement in the PulseNet program. Expanded State
             participation in PulseNet would improve the ability to stop ongoing foodborne
             illness outbreaks.

      Standard 6 - Compliance and Enforcement

      <	     Model Programs - Following up on Food Code violations has typically been a
             weak point with many agencies. The FDA could develop model programs and/or
             highlight “best practices” of programs similar to their own to emulate in order to
             help retail food inspection agencies attain this standard. These examples are very
             important to localities where the program leadership and/or the political climate
             has not been conducive for an effective compliance and enforcement program.




FDA & RETAIL FOOD                             18                                    OEI-05-00-00540
      Standard 7 - Industry and Community Relations (Previously called Industry
      Recognition)

      <	     Best Practices - The FDA could evaluate and disseminate a variety of “best
             practice” approaches to recognizing retail food service operators. This is
             important because many retail food inspection agencies view themselves as
             enforcement agencies. For them, the notion of commending a retail food operator
             runs counter to that impulse.

      <	     State and Local Recognition - The FDA could also prominently recognize State
             and local agencies that do an exemplary job meeting some or all of the Standards.

      Standard 8 - Program Support and Resources

      <	     Testimony - As FDA has done with Food Code adoption, it could assist State and
             local retail food safety inspection agencies by providing testimony in support of
             the Standards, especially relating to appropriate staff-to-facility ratios and the
             minimum frequencies of inspections.

      <	     Practical Advice to Agencies - The FDA could develop written materials on the
             Standards that explain the practical implications of the Standards to program
             administrators. The FDA could explain the anticipated resources and
             documentation necessary for each of the Standards so agencies and their
             employees could better understand how they will be affected.

      <	     Innovative Grants - The FDA could continue its innovative food safety grants to
             retail food inspection agencies who develop new ways to attack problems relating
             to foodborne illnesses in the retail setting and explore new funding mechanisms
             available for State and local agencies.

      <	     Minimum Equipment Needs - The FDA could define minimum program
             equipment necessary for retail food inspections as well as for compiling the data
             necessary to meet and carry out the Standards. The FDA should also work with
             agencies to help them get these necessary tools. The FDA currently lends
             substantial assistance to agencies in terms of training and interpretation of the
             Food Code and Standards. And some Regional Food Specialists have found
             creative ways to fund small, but important, purchases for retail food inspection
             agencies when no alternative local funding was possible. But many of the more
             than 3,000 retail food inspection agencies are very small - sometimes one person
             for a county - and have little equipment. For those inspectors without computers,
             on-line access to training is impractical and they may not have the inspection
             equipment to adequately perform this basic function.

      Standard 9 - Program Assessment

      <	     Assessment Training - The FDA could provide training to FDA staff in order for
             them to assist State and local agencies with their program assessments. Program


FDA & RETAIL FOOD                            19                                    OEI-05-00-00540
             assessment has not been featured prominently in retail food inspection agency
             activity in the past. Many agencies will be looking to FDA for assistance, at least
             initially.

      <	     Audit Process - The FDA needs to develop its own audit process to determine
             whether Standards are met.

      <	     Certified Evaluation Officers - The FDA needs to develop a procedure for
             certifying Evaluation Officers, and a plan for ensuring that an adequate number of
             Certified Evaluation Officers are present in the State and local jurisdictions. This
             standard requires that an FDA-Certified Evaluation Officer conduct an outside
             program validation by using FDA validation procedures every 3 years.


Develop a model strategic plan for the States to use as they
consider acceptance and begin implementation of the
Standards
      While the above strategic plan details activities for FDA to consider as they begin to roll
      out the Standards on a national basis, it is also important that FDA provide States with a
      model strategic plan outlining what the States should consider in regard to accepting and
      implementing the Standards. Such a document would assist the States as they make
      decisions regarding the allocation of resources and determining future actions at the State
      level in regard to retail food safety. The FDA can use some of the suggestions we made
      above for their own strategic plan as well as incorporate new information as they see fit
      into the model State plan.




FDA & RETAIL FOOD                              20                                    OEI-05-00-00540
                    AGENCY                   COMMENTS

      The Food and Drug Administration agrees with the recommendations in this report and
      will develop strategic plans and continue to work with other groups, States and localities
      regarding innovative ways to facilitate food safety through adoption and implementation
      of the Code and the Standards.

      We would like to thank FDA for their assistance in conducting this study, especially for
      the availability of their staff at all levels to discuss their experiences and provide
      meaningful and insightful comments.




FDA & RETAIL FOOD                              21                                    OEI-05-00-00540
                                       APPENDIX A


                    Agency Comments





FDA & RETAIL FOOD          22            OEI-05-00-00540
                                                                                  APPENDIX A


                                  Agency Comments
               FDA’s Comments on the Office of Inspector General’s (OIG)
              Draft Report Regarding the FDA’s Retail Food Safety Program

   FDA welcomes the OIG’s draft report “Retail Food Safety” as a fair assessment of the
   challenges FDA faces in assisting jurisdictions in their regulation of food establishments
   at the retail level. Because resources are limited at all levels, collaboration is essential
   among FDA, State and local agencies, and the retail food industry.

   As of May 16, 2001, 30 states have “adopted” the Food Code (Code) and 15 states are
   working on adopting the Code. We will continue to work with the states in achieving
   Code adoption. In addition, FDA has funded a contract with the Association of Food and
   Drug Officials (AFDO) to assess whether the substance of each "adoption" equals FDA’s
   model Code expectations.

   FDA agrees with the recommendations in this report. Some of the recommendations can
   be implemented with current resources, but others will be implemented as resources
   become available.

   FDA will review the frequency of issuance of and codification of the Code to facilitate
   adoption by the States. We will also expand outreach to ethnic communities as resources
   become available.

   Some of the recommendations are being addressed by the many organizations with which
   we leverage, e.g., the Conference for Food Protection (CFP), AFDO, National
   Environmental Health Association (NEHA), and National Association of County and
   City Health Officials (NACCHO). The Center for Disease Control and Prevention
   (CDC) and FDA have also partnered in several projects, including the Environmental
   Health Sanitarians (EHS)-Net program in which experienced EHS are trained and
   assigned to certain agencies. Their task is to assist the agencies in expanding outbreak
   investigations to identify precursors to the occurrence of foodborne illness risk factors
   and to assist in promoting the integration of the Standards in jurisdictions' regulatory
   schemes. FDA will continue partnering with these and other groups regarding additional
   and innovative ways to facilitate food safety through adoption and implementation of the
   Code and the FDA’s Recommended National Retail Food Regulatory Program
   Standards (Standards).




FDA & RETAIL FOOD                               23                                    OEI-05-00-00540
                                                                                      OEI-05-00-00540
                                                                                   APPENDIX A


                                  Agency Comments
                          FDA’s Response to OIG Recommendations

   OIG Recommendation: Develop strategic plans.

   FDA Comment: FDA agrees. The current Retail Food Steering Committee’s
   Operational Plan includes a specific plan for fiscal years 2002 and 2003 to promote
   implementation of the Standards, including enrollment of a certain number of states and
   localities in the Standards each year, conducting regional workshops on the Standards,
   and other targeted efforts. We will work towards developing an expanded strategic plan.
   We will also develop a model strategic plan for states.

   Standard 1 – Regulatory Foundation:

   # OIG Recommendation: Improve Adoption of the Food Code

   FDA Comment: FDA acknowledges the difficulties states have had keeping pace with the two-
   year revision cycle. Under the rubric of the CFP, FDA is working with an ad-hoc committee to
   review this cycle. The ad-hoc committee is expected to report back to the CFP in April 2002.

   # OIG Recommendation: Codify the Code:

   FDA Comment: FDA agrees in part with this recommendation. FDA is actively engaged
   in codifying the Code for its Interstate Travel Program (ITP) by revising 21 CFR 1240
   and 1250 and inserting the Code, as it relates to interstate travel conveyances in 21 CFR
   1260. FDA anticipates completing this in 2002. The FDA is also working on codifying
   certain model Code provisions that relate to egg safety. FDA will subsequently review
   the feasibility of codifying the rest of the Code.

   # OIG Recommendation: Issue a User Guide to the Code

   FDA Comment: FDA agrees with the need to provide a “plain-speaking” guide to the
   Code. FDA will review the options to address this, including AFDO's Pocket Guide for
   Regulators or one-page compilations of key reference information for food and
   equipment (e.g., cooking times and temperatures, sanitizer concentrations, and lighting
   requirements).

   # OIG Recommendation: Interpretations of Code and Standards

   FDA Comment: FDA agrees and is looking into posting to a web site the responses to
   frequently asked questions, as well as responses to less frequent inquiries.



FDA & RETAIL FOOD                               24                                     OEI-05-00-00540
                                                                                       OEI-05-00-00540
                                                                                  APPENDIX A


                                  Agency Comments

   Standard 2 – Trained Regulatory Staff:

   # OIG Recommendation: Need for Standardization Staff

   FDA Comment: FDA agrees and will assess the need for additional staff to provide adequate
   standardization opportunities sought by the regulatory agencies.

   # OIG Recommendation: Web-based Training

   FDA Comment: FDA agrees with this recommendation. Web-based training is essential
   to leverage scarce resources and, therefore, it represents an integral part of the Agency’s
   retail food safety game plan. FDA has initiated "Office of Regulatory Affairs University"
   (ORA U) which will combine face-to-face, web-based and satellite training. ORA U is
   being rolled out in the summer of 2001, with California, Colorado, and Texas serving as
   pilot participant states. The retail curriculum is consistent with Standard 2 of the
   Program Standards. The curriculum is being developed jointly with AFDO and is also
   being coordinated with a "certification" initiative by the CFP. The following web based
   courses are presently under development. These courses are expected to be available by
   spring of 2002:

   Ë   Public Health Principles

   Ë   Basic Food Law 

   Ë   Food Microbiology/Chemistry

   Ë   Basics of Hazard Analysis and Critical Control Point (HACCP)

   Ë   Investigating Foodborne Illness

   Ë   Communications

   Ë   Basics of Sanitation

   Ë   Basics of Inspection 


   These web-based courses are being developed through a Cooperative Research and

   Development Agreement (CRADA) with EduNeering, a learning technology firm from

   Princeton, New Jersey. Through the CRADA, EduNeering will offer the same web

   based courses to the regulated industry.


   The other component of the curriculum is face-to-face courses. In conjunction with

   AFDO, FDA is developing a "Basics" course to train new inspectors, as well as a higher

   level "retail applications" course for more experienced inspectors. Each "course-in-a-

   box" will include lesson plans, audiovisual materials, exercises, and exams. The FDA,

   AFDO, other associations, or the sponsoring agency will deliver the face-to-face courses. 

   Such courses will be promoting a national uniform teaching vehicle, while 



FDA & RETAIL FOOD                               25                                    OEI-05-00-00540
                                                                                      OEI-05-00-00540
                                                                               APPENDIX A


                                Agency Comments

   simultaneously providing the opportunity for state/local agencies to include unique
   requirements/procedures of the state/local municipality in the course. These courses will
   be implemented according to available resources.


   #   OIG Recommendation: State and Local Training

   FDA Comment: FDA agrees with this recommendation and will address it through
   ORA U.

   # OIG Recommendation: Recruitment Clearinghouse

   FDA Comment: FDA agrees that a national clearinghouse for retail food inspection
   vacancies is desirable. FDA will explore options for this.

   # OIG Recommendation: Turnover Exception

   FDA Comment: The Standards are intended as a benchmark infrastructure and operating
   framework for the norm. If needed, the mechanics for addressing temporary deviations
   in the listing program can be discussed as part of the CFP process.

   Standard 3 – Inspection Program Based on HACCP Principles:

   # OIG Recommendation: Software Inspection Tools

   FDA Comment: FDA has been exploring new hand-held computers with the memory
   capacity to store the entire Electronic Inspection System (EIS). FDA plans to develop an
   enhanced version of this system and will explore with the developer the possibility of
   including forms such as the Risk Control Plan and the Inspection Report Form that is
   used for standardization.

   # OIG Recommendation: Model Inspection Forms

   FDA Comment: FDA agrees and is currently working with a CFP Committee to develop
   “essential elements” of an inspection form.




FDA & RETAIL FOOD                             26                                   OEI-05-00-00540
                                                                                   OEI-05-00-00540
                                                                                   APPENDIX A


                                  Agency Comments

   Standard 5 – Foodborne Illness Investigation & Response:

   # OIG Recommendation: Training Outreach

   FDA Comment: FDA agrees and, in collaboration with the American Medical
   Association, the CDC, and the United States Department of Agriculture (USDA), has
   developed an educational tool on foodborne illness for physicians, “DIAGNOSIS AND
   MANAGEMENT OF FOODBORNE ILLNESS: A PRIMER FOR PHYSICIANS”,
   January 2001. It provides physicians with current guidelines for the diagnosis,
   treatment, reporting, and prevention of foodborne illness and with information for their
   patients on the prevention of foodborne illness.

   #	 OIG Recommendation: Model Linkages (Flowchart foodborne illness
       investigation and response, clarifying what different agencies could do in certain
       situations.)

   FDA Comment: FDA agrees and its efforts to improve coordination and communication
   among public health and food regulatory officials, particularly related to foodborne
   illness outbreaks, include, but are not limited to the following:
   1.	 In December 2000, FDA participated in the release of a multi-agency report entitled,
       Outbreak Response and Coordination for Federal and State Agencies During
       Multi-State Foodborne Illness Outbreaks. This report outlines the standard
       operating procedures for the rapid exchange and release of data and information
       during multi-state outbreaks of foodborne illness. It serves to guide federal agencies,
       state, or local health officials, and state food regulatory officials involved in food or
       waterborne outbreaks on procedures for coordinating responses during a multi-state
       outbreak of food or waterborne illness.
   2.	 The National Food Safety System (NFSS) project, which includes FDA, USDA,
       CDC, and the Environmental Protection Agency, as well as states, contributes
       significantly to more effective implementation of existing food safety programs.
   3.	 The Outbreak Coordination and Investigations Workgroup of the NFSS project issued
       a protocol on how to conduct multi-state outbreak investigations. This protocol,
       Guidelines Manual for Coordinating Foodborne Outbreak and Traceback
       Investigations, addresses greater clarity about the roles of various players in an
       outbreak situation.




FDA & RETAIL FOOD                               27                                     OEI-05-00-00540
                                                                                       OEI-05-00-00540
                                                                               APPENDIX A


                                Agency Comments

   # OIG Recommendation: Improved Surveillance System

   FDA Comment: FDA has an ongoing working relationship with CDC in improving
   surveillance and shares resources for purposes of coordination, cross-training, and
   outbreak investigation. We will promote awareness amongst the states.

   Standard 6 – Compliance and Enforcement:

   # OIG Recommendations: Model Programs and Best Practices

   FDA Comment: FDA agrees. Identification of “best practices” for voluntary
   compliance, enforcement, and industry recognition would facilitate implementation of the
   Standards and enhance consumer protection. FDA will examine how best to collect and
   disseminate that information and will implement this as resources permit.

   # OIG Recommendation: State and Local Recognition

   FDA Comment: FDA’s National Registry of Retail Food Protection Programs will
   identify states and localities that meet the requirements of the Program Standards.

   Standard 8 – Programs and Resources:

   # OIG Recommendation: Testimony

   FDA Comment: FDA has been vocally supportive of the Program Standards and State
   and local agencies routinely interact with FDA’s Regional Specialists who can provide
   targeted support.

   # OIG Recommendation: Practical Advice to Agencies

   FDA Comment: FDA conducts outreach to spread the word about the Program
   Standards. At the NEHA meeting this summer, the Retail Food Steering Committee
   Chair provided an overview of the Standards. A video of that presentation was
   subsequently used at the National Association of Local Boards of Health (NALBOH)
   meeting. At last year's meeting of that group, the Retail Food and Interstate Travel Team
   Supervisor provided a face-to-face power point presentation and discussion about the
   Program Standards.




FDA & RETAIL FOOD                             28                                   OEI-05-00-00540
                                                                                   OEI-05-00-00540
                                                                              APPENDIX A


                                Agency Comments

   # OIG Recommendation: Innovative Grants

   FDA Comment: FDA agrees and plans to continue food safety grants as resources
   permit. Current plans for FY' 02 include continuation of the Innovative Grants Program.

   # OIG Recommendation: Minimum Equipment Needs

   FDA Comment: See the response to Innovative Grants.

   # OIG Recommendation: Assessment Training

   FDA Comment: Training and assistance on the Program Standards are scheduled
   through workshops planned in FY’ 01. Additional assistance will be provided through
   the Regional Food Specialists to the states and locals as resources permit.

   # OIG Recommendation: Audit Process

   FDA Comment: FDA agrees and is premiering an audit course that will include auditing
   principles. A specific Program Standards Auditing Guide is scheduled for development
   in FY’ 03. Since, after initial enrollment in the Standards, audits occur on 36-month
   cycles thereafter, completion of the Audit Guide in FY’ 03 allows a period of time for
   evaluating its use and practical application.

   # OIG Recommendation: Certified Evaluation Officers

   FDA Comment: FDA has anticipated that need and procedures for certifying Evaluation
   Officers are in the queue for drafting as resources become available.




FDA & RETAIL FOOD                            29                                   OEI-05-00-00540
                                                                                  OEI-05-00-00540
